  OFFICE OF THE INSPECTOR GENERAL
                                    1
                 SEMIANNUAL
                                    9
                                   REPORT




OCTOBER   1,   1998   ~   MARCH
                                    9
                                  31,   1999




                                    9
The Office of the Inspector General
(OIG) is an independent organization
charged with reporting to the
Tennessee Valley Authority (TVA) Board
of Directors and Congress on the
overall efficiency, effectiveness, and
economy of TVA programs and
operations. The OIG meets this
responsibility by conducting audits,
investigations, and other reviews.


The OIG focuses on the prevention,
identification, and elimination of
(1) waste, fraud, and abuse; (2) viola-
tions of laws, rules, or regulations; and
(3) inefficiencies in TVA programs and
operations.


If you want to report any matter
involving TVA programs, operations, or
employees, you should call the OIG
Hotline or write the Inspector General's
office.




               TVA
               TVA
                                            Call toll free:
               INSPECTOR
                                            1-800-323-3835
               GENERAL                      423-632-3550 (Knoxville)


                           n e
                      t li                  Tennessee Valley Authority
                                            400 West Summit Hill Drive ET 4C


                  H o                       Knoxville, Tennessee 37902-1499
Tennessee Valley Authority
                 Authority, 400 West Summit Hill Drive, Knoxville, Tennessee 37902-1499




George T. Prosser
Inspector General



April 30, 1999




TO THE TVA BOARD OF DIRECTORS AND THE UNITED STATES CONGRESS

This, our 26th semiannual report, describes the accomplishments of our office for the six-month period
ending March 31, 1999.

During this reporting period, we completed 38 audits which identified more than $1.1 million in ques-
tioned costs and over $1.4 million in funds that could be used more effectively. Our auditors conducted
performance reviews of TVA operations and contract preaward and compliance audits. We also
conducted 18 special projects, including reviews of the TVA Concerns Resolution Program and TVA’s
electricity trading processes.

Our investigations group completed 66 investigations, substantiating allegations in over 40 percent of the
cases we closed. During this reporting period, our investigations resulted in over $3 million in savings
and recoveries, six subjects indicted, and nine subjects convicted. Further, as a result of our investiga-
tions of alleged misconduct, administrative and disciplinary action was taken against 11 individuals, and
other corrective action taken in 4 cases.

When TVA was established almost seven decades ago, it would have been impossible to predict the
ensuing changes in government, technology, the utility industry, and even the Tennessee Valley region
TVA was designed to serve. Our office continues to strive to help TVA navigate its changing environ-
ment. Our efforts during this reporting period ranged from investigating potentially criminal contractor
claims, taking part in training TVA procurement officers, and reviewing performance measures TVA
developed pursuant to the Government Performance and Results Act of 1993. We hope our work
continues to help TVA as the agency and the people of the region move into the next century.

Sincerely,



George T. Prosser




                                                           SEMIANNUAL REPORT/ OCTOBER 1 , 1 9 9 8 ~ MARCH 3 1, 1 9 99
                                                                                                           CONTENTS                     ■




1    Executive Summary                                   9    Audits
                                                                                                                      OFFICE OF THE
                                                                                                                      INSPECTOR
2    TVA Profile                                         12   Investigations                                          GENERAL

                                                                                                                      SEMIANNUAL
3    Office of the Inspector General                     18   Special Projects                                        REPORT

                                                                                                                      OCTOBER 1, 1998
6    Special Features
                                                                                                                      THROUGH
                                                                                                                      MARCH 31, 1999




Appendices
    1. OIG Audit Reports Issued During the Six-Month Period Ending March 31, 1999
    2. OIG's Report on Management Decisions for the Six-Month Period Ending March 31, 1999
    3. Investigative Referrals and Prosecutive Results
    4. TVA Management's Report on Final Actions for the Six-Month Period Ending March 31, 1999
    5. OIG Reporting Requirements




                                                                        SEMIANNUAL REPORT/ OCTOBER 1 , 1 9 9 8 ~ MARCH 3 1, 1 9 99
■    EXECUTIVE              SUMMARY




                      We continued our efforts to support          We also conducted special project
                      TVA’s goals by providing quality service     reviews requested by our customers,
                      with audits, investigations, and special     primarily the Board of Directors, TVA
This report           projects. We completed 38 audits             management, and Congress. During
summarizes the        which identified over $1.1 million in        this reporting period, we reviewed TVA’s
                      questioned costs and more than               risk management processes and made
activities and
                      $1.4 million in funds that could be used     several suggestions for improvements in
accomplishments       more effectively. We conducted 18            policy development and risk manage-
of TVA's OIG          special projects. We closed 66 investi-      ment controls. We also conducted a
                      gations which led to over $3 million in      comprehensive review of TVA’s Con-
during the six-
                      savings and recoveries. Investigations       cerns Resolution Program and assessed
month period          of alleged misconduct led to administra-     the workforce’s willingness to report
                      tive and disciplinary action taken against   safety concerns.
ending
                      11 individuals and other corrective
March 31, 1999.       action in 4 cases.                           Our investigative activities included
                                                                   inquiries into theft of government
                      Our audit activities included perfor-        property, environmental crimes, work-
                      mance reviews of TVA programs,               ers’ compensation fraud, contractors’
                      processes, and systems, as well as           fraudulent claims for temporary living
                      compliance and preaward audits of TVA        expenses, health care overpayments,
                      contractors. Representative audits           and employee misconduct. Our
                      include reviews of (1) TVA’s prescription    investigations led to 15 entities being
                      drug program, (2) preaward audits to         indicted or convicted, including a former
                      assist TVA management in negotiation         executive director of a Kentucky non-
                      of contracts, (3) TVA performance            profit corporation who was sentenced to
                      measures reported in compliance with         41 months’ imprisonment.
                      the Government Performance and
                      Results Act of 1993, and (4) billings
                      under a construction and modifications
                      contract.




1    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                          TVA        PROFILE                 ■




                                          Bowling Green
                                                           •

                                                                                                 •
                                                                                              Bristol


                                                  •                             Knoxville
                                               Nashville
                                                                                •
                            Jackson
                              •
                                                                                                                           TVA's 13,563
                Memphis
                •                                              Chattanooga
                                                               •                                                           employees serve
                                                 Huntsville
                                        •
                                      Muscle          •
                                      Shoals

                          Columbus
                                                                                                                           an 80,000-square-
                                  •
                                                                                                                           mile region

                                                                                                                           spanning seven

                                                                                                                           states.




TVA is a federal corporation responsible                           Craven Crowell is the Chairman, and
for developing and conserving the                                  William H. Kennoy is a Director. Johnny
natural resources of the Tennessee                                 Hayes resigned his Director’s position
River Valley.                                                      during this reporting period.

TVA's 13,563 employees are involved in                             TVA’s vision is to generate prosperity in
regional development, integrated                                   the Tennessee River Valley. TVA’s
resource management, and the                                       goals are to supply low-cost reliable
production of low-cost electricity. The                            power, support a thriving river system,
power system is funded by power sales,                             and stimulate economic growth. TVA
and TVA's other programs are funded                                strives to exceed its goals by valuing
primarily by congressional appropriations.                         integrity, respect for the individual,
                                                                   accountability, teamwork, innovation
TVA is governed by a three-member                                  and continuous improvement, honest
Board of Directors appointed by the                                communication, and flexibility.
President and confirmed by the Senate.



                                                                             SEMIANNUAL REPORT/ OCTOBER 1 , 1 9 9 8 ~ MARCH 3 1, 1 9 99      2
■   OFFICE         OF     THE         INSPECTOR                  GENERAL




                     Organization                                 Office Authority
                     The OIG’s Audit Operations unit con-         The TVA Board of Directors administra-
                     sists of three operational departments.      tively established the OIG during
                     One is devoted to contract-related           October 1985. When Congress
                     topics, both preaward and post-award         enacted the Inspector General Act
                     reviews; the two other departments           Amendments of 1988, TVA's OIG
                     focus on performance, financial, ADP-        became one of the statutory offices
                     related issues, and special projects.        whose Inspector General is appointed
                                                                  by the agency head. TVA's Inspector
                     The OIG’s Investigative Operations unit      General is independent and subject only
                     consists of an Investigative Services and    to the general supervision of the Board
                     Hotline group and two investigative          of Directors.
                     departments—Financial Investigations
                     and Internal Investigations. While both      George T. Prosser became TVA’s third
                     departments work a variety of cases,         Inspector General on April 1, 1994.
                     including employee integrity and
                     environmental issues, Financial Investi-
                     gations focuses on contract and
                     workers’ compensation cases, while
                     Internal Investigations focuses on
                     nuclear issues and benefits and entitle-
                     ment programs.




3   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                               O F F I C E    O F     T H E    I N S P E C T O R   G E N E R A L




Staffing and Budget
The OIG's offices are in the TVA                        The OIG's fiscal year 1999 budget is
headquarters in Knoxville, Tennessee.                   about $7.3 million, and during this
The OIG also has investigative satellite                reporting period, the OIG had
offices in Chattanooga, Tennessee, and                  81 employees.
Huntsville, Alabama.



                         OFFICE OF THE INSPECTOR GENERAL


                                       INSPECTOR GENERAL

                                                 ■

                                          George T. Prosser


                                                                                 Manager
     Legal Counsel                                                           (Human Resources)

           ■                                                                          ■
     Richard P. Levi                                                            Kay T. Myers




                     Assistant                                        Assistant
                 Inspector General                               Inspector General
                      (Audits)                                     (Investigations)
                         ■                                                ■
                   Ben R. Wagner                                  G. Donald Hickman


                   ■ Contract                                       ■ Financial
                     Audits                                           Investigations
                     Paul E. Ivie                                     James M. Reed
                     Manager                                          Manager
                   ■ Financial and                                  ■ Internal
                     ADP Audits                                       Investigations
                     Deborah Meyers Thornton                          Ron W. Taylor
                     Manager                                          Manager
                   ■ Operational Audits
                     and Special
                     Projects
                     Lewis M. Ogles
                     Manager




                                                              SEMIANNUAL REPORT/ OCTOBER 1 , 1 9 9 8 ~ MARCH 3 1, 1 9 99      4
OFFICE OF THE INSPECTOR GENERAL




                     WAGNER APPOINTED ASSISTANT
                     INSPECTOR GENERAL FOR AUDITS

                     Ben R. Wagner was named Assistant Inspector
                     General for Audits (AIGA), effective January 4,
                     1999, replacing Ted R. Ping who retired.
                     Wagner is a certified public accountant and an
                     accounting graduate from The University of
                     Tennessee at Knoxville. Prior to being named
                     AIGA, Wagner was the Manager, Contract
                     Audits. He has worked in the OIG since April
                     1986, holding various management positions in
                     Preaward and Special Projects, Inspections,
                     Operational Audits, and Management Services.




                                                              IVIE APPOINTED MANAGER FOR
                                                              CONTRACT AUDITS

                                                              Paul Ivie was selected as the Department
                                                              Manager for Contract Audits. Ivie, a 23-year
                                                              veteran of TVA, has been with the OIG for
                                                              12 years. Ivie has been a team leader in the OIG
                                                              for over ten years and has been responsible for
                                                              numerous high-profile and sensitive assignments.
                                                              Ivie is a registered professional engineer, a
                                                              certified internal auditor, and a certified fraud
                                                              examiner. Ivie holds a bachelor’s degree in
                                                              engineering from the Georgia Institute of Technol-
                                                              ogy in Atlanta, Georgia, and master’s degrees in
                                                              engineering and business administration from The
                                                              University of Tennessee at Knoxville.




5   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                  SPECIAL FEATURES ■




AUDIT AND INVESTIGATIONS WORK                                      TVA contracted with a private company
TOGETHER TO UNCOVER FRAUD
                                                                   to manage the TMP. Tool manage-
During this reporting period, two former                           ment responsibilities included purchas-
TVA contract employees and the                                     ing, inventorying, and dispensing tools to
brother of one of the employees pled                               TVA plant sites. To prevent theft, TVA
guilty in federal court to conspiring to                           required the tools purchased by TMP to
steal TVA industrial power and pneu-                               be painted a copper-bronze color, bar-
matic tools, valued by TVA at over                                 code labeled, and inventoried prior to
$1.17 million. In addition to pleading to                          use.
the conspiracy
charge, the                                                                                            Upon receiving

brother pled                                                                                           the allegation,

guilty to theft                                                                                        the OIG initiated

of government                                                                                          an investigation

property. The                                                                                          and an audit.

pleas are the                                                                                          The audit

result of an                                                                                           focused on the

OIG investiga-                                                                                         extent of tools

tion and audit                                                                                         missing from the

which arose                                                                                            TVA inventory

from allega-                                                                                           and provided
                      Pictured above are Special Agent James Farr; Gerald H. McDougal, TVA Materials
tions by employ-           Officer - Retired; and Auditor Jerry Stover. McDougal’s concerns about      assistance to
                                  the administration of the tool management program initiated
                                                 the OIG investigation and audit.
ees working in                                                                                         investigators.

the TVA Tool                                                                                           The audit

Management Program (TMP) at a TVA                                  reported to TVA management that over

location in Nashville, Tennessee.                                  $2 million worth of tools could not be

Specifically, individuals employed in the                          accounted for in the TMP. As a result

TMP voiced concern to the OIG Hotline                              of the company’s mismanagement of

that two individuals serving in key                                the tool inventory, TVA withheld sub-

contract management positions (Project                             stantial funds from the company’s

Support Manager and Operations                                     performance fee award.

Manager) directed the movement of
large quantities of tools from the TVA
warehouse to various locations.




                                                                             SEMIANNUAL REPORT/ OCTOBER 1 , 1 9 9 8 ~ MARCH 3 1, 1 9 99   6
SPECIAL FEATURES




                     The investigation determined that during   OIG SUPPORTS PROCUREMENT
                                                                TRAINING FOR CONTRACT
                     the February/March 1994 timeframe,
                                                                MANAGERS/CONTRACT AGENTS
                     the Project Support Manager and the
                     Operations Manager removed tools—          TVA Procurement is changing its
                     valued at over $73,000—from the TVA        process for the procurement/manage-
                     warehouse and delivered them to the        ment of TVA’s materials and services
                     Project Support Manager’s brother.         from a price-focused activity to man-
                     The brother sold the tools to another      agement of “total cost” throughout the
                     firm through his private company.          life cycle of the equipment, material, or
                                                                service. The changes have resulted in
                     During an eight-month period in 1994       the need for a fundamental shift in the
                     and 1995, the contract managers            role of TVA’s traditional purchasing
                     purchased tools valued at approximately    agent, which had primarily been
                     $1.2 million using TVA funds. The two      transaction oriented with a focus on
                     managers obtained and transferred          contract administration. In their new
                     unmarked, non-inventoried tools to and     role, TVA’s purchasing agents are now
                     from TVA warehouses and private            called contract managers/contract
                     storage units for the purpose of selling   agents (CM/CA) and will focus on
                     them for personal gain. The Project        contract management. The CM/CA will
                     Support Manager’s brother was actively     proactively seek ways to lower total
                     involved in the scheme and sold large      cost and achieve value beyond contract
                     quantities of the tools.                   award.

                     The three individuals are awaiting         To determine the skills, education, and
                     sentencing in federal district court in    knowledge needed for CM/CAs to
                     Nashville.                                 perform their new role, Procurement




7   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                  SPECIAL FEATURES




performed a study of the new process
and reviewed the best practices of other
companies. Based on information
obtained in their review, three educa-
tional modules were developed which
contain classes in areas such as policies
and procedures, strategic sourcing,
solicitations, terms and conditions,
negotiations, etc. The classes, which
are taught by Procurement managers or
other professionals outside of Procure-
ment, are now required courses for
each CM/CA.

The OIG supports Procurement’s
training efforts. In addition to the OIG’s
ongoing role of conducting preaward
and post-award audits, the OIG is
participating in the contract administra-
tion training module. In this module, the
OIG presents an overview of the audit
process and a discussion on the value
of using audits in the contract adminis-
tration process. In addition, an OIG
investigator presents an overview of the
investigative process and contract fraud
awareness.




                                             SEMIANNUAL REPORT/ OCTOBER 1 , 1 9 9 8 ~ MARCH 3 1, 1 9 99   8
■   AUDITS




                     Audits are initiated from (1) the OIG        adjudication and participation in a
                     annual workplan, (2) issues identified by    prescription drug manufacturers’ volume
                     the OIG subsequent to the annual             discount program.
                     workplan, (3) issues identified by
                     cooperative efforts with TVA manage-         We assessed whether the contractor

                     ment, or (4) concerns raised by TVA          (1) complied with the cost and benefit

                     management or others. During this            provisions of the contracts in adjudicat-

                     reporting period, we issued 38 audit         ing prescription drug claims and (2) cor-

                     reports which identified over $1.1 million   rectly calculated the drug manufacturer

                     in questioned costs and more than            rebates due TVA. In summary, we

                     $1.4 million in funds which could be put     found the contractor complied with the

                     to better use (see Appendix 1).              cost and benefit provisions in adjudicat-
                                                                  ing claims but owed TVA $401,468 in
                     Summary of                                   unpaid prior-year rebates and accrued
                     Representative Audits                        interest. TVA subsequently received the
                                                                  full amount questioned.
                     Our audits included performance
                     reviews of TVA programs, processes,          RECOMMENDATIONS FOR
                                                                  POTENTIAL COST SAVINGS IN
                     and systems, as well as compliance and
                                                                  CONTRACT NEGOTIATIONS
                     preaward audits of TVA contractors.
                                                                  We conducted six preaward audits to
                     PRESCRIPTION DRUG PROGRAM                    assist TVA management in negotiation

                     In 1994, TVA contracted for administra-      of procurement actions. One contract

                     tion of the prescription drug program for    compliance audit also resulted in

                     all TVA medical benefit plans. For           recommendations for forward pricing of

                     calendar year 1995 and subsequent            the contract. These audits resulted in

                     years, the program was limited to TVA’s      recommendations that $749,000 could

                     Trades and Labor employees because a         be put to better use by negotiating

                     contract for administration of a separate    contract proposal or forward pricing

                     prescription drug program for manage-        reductions. Management generally

                     ment, specialist, and salary policy          agreed with our findings and negotiated

                     employees was awarded to another             savings of $307,100.

                     contractor. The Trades and Labor
                     program provided pharmacy benefit
                     management services, including claims




9   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                            AUDITS




REVIEW OF GOVERNMENT                          CONSTRUCTION AND
PERFORMANCE AND RESULTS ACT                   MODIFICATIONS CONTRACT
OF 1993 PERFORMANCE                           OVERBILLINGS
MEASURES
                                              We audited billings for work performed
TVA submitted a strategic plan covering
                                              under a contract for construction and
fiscal years 1997 through 2002 to
                                              modifications work at TVA facilities. We
Congress and the Office of Manage-
                                              questioned overbillings totalling $291,000
ment and Budget. The strategic plan is
                                              for United Way matching contributions,
supported by annual performance plans,
                                              nonmanual wage rates, and payroll tax
which include performance goals and
                                              markups. TVA management agreed
performance indicators. We reviewed
                                              with our findings and to date has
the data sources and information
                                              collected $152,000. Also, during this
systems that support the Delivered Cost
                                              period, TVA recovered an additional
of Power (DCP) and Energy Sales
                                              $108,000 of overbillings from a review of
Growth (ESG) performance indicators
                                              this contractor reported in a previous
and found the sources and systems are
                                              period.
adequate and reliable.

                                              COAL AND COAL FREIGHT
Additionally, we found TVA’s accounting
                                              BILLINGS
method for power sales to other utilities
                                              During fiscal year 1998, TVA purchased
was not revised to reflect changed
                                              over 44 million tons of coal at a cost of
circumstances. As a result, their DCP
                                              $936 million. During calendar year
and ESG were affected for fiscal years
                                              1998, TVA paid $255.6 million in freight
1996 and 1997. We also found TVA’s
                                              costs associated with over 46 million
presentation of sales to other utilities in
                                              tons of coal transported. Because
the annual income statements for fiscal
                                              these costs are a significant part of
years 1996 and 1997 did not fully
                                              TVA’s budget, we audited contracts
comply with the Federal Energy Regula-
                                              with billings of over $232 million with
tory Commission’s Uniform System of
                                              TVA’s coal and coal freight vendors for
Accounts and utility industry accounting
                                              contract compliance.     We found
practice. TVA management has taken
                                              generally coal and freight costs are billed
corrective actions.
                                              in accordance with the contracts.




                                                    SEMIANNUAL REPORT/ OCTOBER 1 , 1 9 9 8 ~ MARCH 3 1, 1 9 99   10
AUDITS




                      TVA’S FINANCIAL STATEMENTS                        order releases or receive reports. TVA

                      PricewaterhouseCooper (PwC) performs              Procurement has expanded the use of
                      the independent audit of TVA’s financial          J-Type contracts in recent years to
                      statements and performs internal audit            reduce administrative cost and stream-

                      work in support of the financial state-           line purchases of services and non-
                      ment audit. We reviewed their audit of            inventory items.
                      TVA’s fiscal year 1998 financial state-
                                                                        We reviewed internal controls associ-
                      ments and determined the audit com-
                                                                        ated with these contracts and selected
                      plied with generally accepted auditing
                                                                        seven large contracts to review for
                      standards, government auditing stan-
                                                                        contract compliance. During our
                      dards, and other significant contractual
                                                                        review, TVA management formed a
                      requirements. We are also reviewing
                                                                        cross-functional team and implemented
                      PwC’s internal audit work to ensure
                                                                        our recommended control improve-
                      compliance with government auditing
                                                                        ments. Also, management agreed to
                      standards.
                                                                        meet periodically to review the
                      MANAGEMENT FORMS CROSS-                           adequacy of internal controls over
                      FUNCTIONAL TEAM TO ENSURE                         J-Type contracts and ensure the
                      GOOD INTERNAL CONTROLS OVER
                                                                        controls are working properly. Five of
                      J-TYPE CONTRACTS
                                                                        the seven compliance audits have been
                      J-Type contracts are blanket purchase             completed with no findings of
                      orders that do not require end-user               noncompliance.
                      organizations to key-enter purchase




                                      UNRESOLVED AUDIT REPORTS WHICH WERE
                                         ISSUED PRIOR TO OCTOBER 1, 1998

                       Listed below are audit reports we issued before this reporting period began and for
                       which no management decision was made by March 31, 1999.

                         Date       Audit                                   Why Management Decision
                        Issued     Number           Report Title              Has Not Been Made

                        There were no audit reports in this reporting category as of March 31, 1999.




11   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                         INVESTIGATIONS ■




During the last six months, we substan-       A federal judge sentenced the individual
tiated allegations in 27 of the 66 investi-   to pay full restitution of $780,089 to the
gations we closed—over 40 percent.            fund and to serve 41 months in prison,
Our investigations resulted in over           followed by 5 years’ supervised release.
$3 million in savings and recoveries, six
                                              FALSE CLAIMS - OFFICE OF
individuals indicted, and one company
                                              WORKERS’ COMPENSATION
and eight individuals convicted. Repre-       PROGRAMS (OWCP)
sentative investigations are highlighted
                                              To receive benefits through the Federal
below.
                                              Employees’ Compensation Act (FECA),

Summary of                                    recipients must periodically submit forms

Representative                                to OWCP that require the recipient to
                                              report all employment, including self-
Investigations
                                              employment. OWCP uses the forms to
EMBEZZLEMENT                                  determine a recipient’s continuing
                                              eligibility for FECA benefits. Failure to
As a result of our investigation with the
                                              disclose employment information to
Federal Bureau of Investigation (FBI) and
                                              OWCP violates state and federal laws.
Kentucky State Police, a former
executive director of a Kentucky non-
                                              During this reporting period, our FECA
profit corporation pled guilty to eight
                                              fraud investigations led to recoveries and
felony counts—one count of bank fraud
                                              long-term savings of over $2 million.
and seven counts of money launder-
                                              Highlights of investigative results follow.
ing—related to his fraudulently obtaining
over $780,000 from the corporation.           ■   A former TVA Construction Services
                                                  warehouseman pled guilty in the
The corporation, which managed a
                                                  State of Alabama Circuit Court,
bond-assurance fund to assist minority
                                                  Lauderdale County, to one count of
and female contractors, received
                                                  first-degree theft for making false
contributions from various federal, state,
                                                  statements to receive FECA benefits.
and local government agencies,
                                                  The individual was sentenced to
including $100,000 from TVA. The
                                                  three years in state prison, sus-
former executive director’s crimes
                                                  pended. He was placed on one
deprived the previously successful
                                                  year’s supervised probation, followed
corporation of almost all its funds.
                                                  by four years’ unsupervised proba-
                                                  tion, and was ordered to pay



                                                     SEMIANNUAL REPORT/ OCTOBER 1 , 1 9 9 8 ~ MARCH 3 1, 1 9 99   12
INVESTIGATIONS




                          $14,732 in restitution to TVA. OWCP           TVA. (During a previous period, the
                          terminated the individual’s benefits,         former carpenter pled guilty to four
                          as well, resulting in long-term savings       counts of making false statements to
                          to TVA of over $480,000.                      obtain OWCP benefits. As part of
                      ■   A former Sequoyah Nuclear Plant               the individual’s plea, he agreed to
                          steamfitter was sentenced to                  pay $46,626 in restitution.)
                          15 months’ imprisonment and
                                                                    ENVIRONMENTAL CRIMES JOINT
                          3 years’ supervised release; his wife
                                                                    TASK FORCE (ECJTF)
                          was placed on probation for a term of
                          3 years. The two were jointly             During this reporting period, we contin-

                          ordered to make full restitution of the   ued our participation in ECJTF, which is

                          loss to TVA—$100,224. (During a           comprised of members from numerous

                          previous period, a jury in the Middle     state and federal agencies, including the

                          District of Florida convicted the         OIG, FBI, Environmental Protection

                          former steamfitter on five counts of      Agency, and Department of Justice.

                          making false statements to obtain         Our participation in ECJTF furthers one

                          OWCP benefits. The jury also found        of TVA’s corporate goals—“Supporting a

                          the individual and his wife guilty of     thriving river system.”

                          conspiracy in connection with his
                                                                    ECJTF focuses enhanced law enforce-
                          fraudulent claims.)
                                                                    ment resources against individuals and
                      ■   A federal judge sentenced a former
                                                                    companies involved in environmental
                          Colbert Steam Plant steamfitter to
                                                                    crimes and prosecutes those individuals
                          three years’ probation, to include six
                                                                    and companies by applying the most
                          months’ home detention, and
                                                                    effective federal and state criminal and
                          ordered him to pay partial restitution
                                                                    civil statutes.
                          to TVA. (During a previous period,
                          the former steamfitter pled guilty to     Highlights of investigative results during
                          making a false statement to obtain        this reporting period include the
                          OWCP benefits.)                           following.
                      ■   A federal judge sentenced a former
                          TVA carpenter to four years’ proba-       ■   A Tennessee coal company, its
                          tion, to include six months’ home             president, and its chief engineer pled
                          detention. Additionally, the individual       guilty to violating the Clean Water Act
                          was ordered to pay restitution to             by negligently discharging, and




13   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                INVESTIGATIONS




    causing to be discharged, mine              tors. During this reporting period, our
    waste water without a permit.               TLE investigations led to recoveries of
                                                over $63,800. Specifically,
    The waste water was discharged
    from a mine that had not been active        ■   A federal judge sentenced a former

    in over 75 years. As mining opera-              United Energy Services Corporation

    tions nearby approached the inactive            (UESC) contractor at Watts Bar

    mine, concern existed that if the               Nuclear Plant (WBN) to pay full

    miners “punched through” to the                 restitution of $37,087 and placed him

    inactive mine, sudden flooding could            on probation for a term of three

    occur, endangering the active mine              years, to include three months’

    and the miners within. Water was                home detention. (During a previous

    subsequently drained from the                   reporting period, the former contrac-

    inactive mine into United States                tor pled guilty in federal court to two

    waters, despite the lack of a permit            counts of submitting false claims to

    to discharge the waste water. The               receive TLE, and he stipulated his

    coal company was fined $19,000                  responsibility for the acts charged in

    and agreed to pay $175,000 to be                60 additional counts.)

    used for environmental protection.          ■   A federal judge sentenced another

    The company’s president and chief               former UESC/WBN contractor to

    engineer were each fined $3,000.                three years’ probation and ordered

■   An individual who previously pled               him to pay a $1,000 fine and to

    guilty to illegally discharging waste oil       make full restitution of $26,263 to

    into United States waters in Bradley            TVA. (During a previous period, the

    County, Tennessee, in violation of the          former contractor pled guilty to

    Clean Water Act, was sentenced                  submitting false statements to

    during this reporting period to nine            receive TLE.)

    months’ home detention and three
                                                EMPLOYEE MISCONDUCT
    years’ probation.
                                                ■   Investigation revealed that a former
FALSE CLAIMS - TEMPORARY                            TVA senior project manager used a
LIVING EXPENSES (TLE)                               TVA credit card for personal
We continued our efforts to reduce TVA              purchases (including motorcycle
contract costs by identifying fraudulent            repairs), and evidence indicated he
and ineligible TLE paid to TVA contrac-




                                                       SEMIANNUAL REPORT/ OCTOBER 1 , 1 9 9 8 ~ MARCH 3 1, 1 9 99   14
INVESTIGATIONS




                          reimbursed TVA for the purchases of           glove box of the vehicle, then parked
                          over $900 only because the OIG                it on TVA property.
                          questioned them.
                                                                        The employee offered to the OIG as
                          The senior project manager resigned           mitigating circumstances that he
                          during our investigation. In addition,        normally carried the pistol for personal
                          based on our findings, management             protection. (Although we confirmed
                          reminded all employees in the former          the employee carried a permit from
                          manager’s organization of the                 the State of Tennessee to carry a
                          responsibilities and limitations associ-      concealed firearm, such weapons on
                          ated with the use of TVA credit cards         site are prohibited.) At the conclusion
                          and put in place improved controls            of the individual’s OIG interview, he
                          and checks for timely reporting and           unloaded the firearm and removed it
                          approvals.                                    from TVA property. Management
                      ■   Investigation revealed a TVA Nuclear          counseled the employee and issued
                          (TVAN) employee violated TVAN                 a disciplinary warning letter.
                          policy by failing to report he was
                          arrested, and the individual subse-        BACKGROUND INVESTIGATIONS
                          quently made false statements to           At the request of TVA management, we
                          management and the OIG concern-            continued to perform background
                          ing his arrest record. Additionally,       investigations for sensitive positions and
                          evidence indicated the employee            for national security clearances. These
                          attempted to steal TVA property and        investigations ensure individuals being
                          verbally threatened a subordinate.         hired for sensitive positions meet
                          Following our report to management,        applicable requirements. By using the
                          the employee resigned in lieu of           OIG rather than the Office of Personnel
                          termination.                               Management to perform these investi-
                      ■   We investigated a report that a TVA        gations, TVA saves an average of over
                          employee was observed concealing           $2,000 per investigation.
                          a weapon on his person and subse-
                          quently entering TVA premises. Our
                          immediate investigation determined
                          the employee, who had rented a
                          vehicle for official TVA business, had
                          placed a semiautomatic pistol in the




15   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                        INVESTIGATIONS




                          Administrative and Disciplinary Actions Since
                                        October 1, 1992*
                                           Total = 432


                                             Resignations/
                                             Terminations            Suspensions/
                                                                      Demotions
                                                   17.5%     11.5%
                     Oral/Written
                      Warnings       14.5%

                                                              34.5%
                                             22%


                    Reemployment                                      Counseling/
                       Flagged                                   Management Techniques



                             *Prosecutive referrals are shown at Appendix 3.




                       The breakdown of the 66 closed investigations involving
                                    TVA organizations are shown below.




                                          TVA Nuclear
        Customer Service &
            Marketing
                                                   26%
                         4.5%                                   3%Transmission & Power Supply
River System Operations 6%
     & Environment                                                12% Fossil Power

                                                                4.5%
                                         44%
                                                                         Other


                                      CAO/
                                Business Services




                                                               SEMIANNUAL REPORT/ OCTOBER 1 , 1 9 9 8 ~ MARCH 3 1, 1 9 99   16
INVESTIGATIONS




                                        All Hotline Contacts During This Reporting Period
                                                           Total = 3,223

                      Nature of Calls
                                                            OIG Business
                                                                Calls
                                                                  72.5%                      Referrals for
                                                                                         OIG Investigations or
                                                                                       1.5% Audit Action
                                                                      25.5%
                                                    .5%

                                                Referrals to TVA           Information
                                            for Management Action           Requests




                                         Referrals for OIG Investigations or Audit Action
                                                            Total = 46



                     Sources of Calls
                     Raising Concerns                        Former TVA/Contractor
                                                                  Employees
                                                                                4%     Anonymous
                                          General                    13%
                                          Public
                                                          41.5%
                                                                              41.5%

                                                                                         TVA/Contractor
                                                                                          Employees &
                                                                                      Contractor Companies




17   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                   SPECIAL PROJECTS                                ■




In addition to conducting audits and          TVA RISK MANAGEMENT
investigations, our office continues to       At the request of TVA management, we
perform special projects upon request         reviewed TVA’s electricity trading
by our customers, primarily the Board of      processes, proposed procedures for
Directors, TVA management, and                limited financial trading, and draft
Congress. During this reporting period,       specifications for a new bulk power
we conducted 18 such projects.                transaction management system. As a
                                              result of these reviews, we suggested
CONCERNS RESOLUTION
PROGRAM                                       that TVA management:

In 1986, TVA committed to the Nuclear         ■   Consider establishing an enterprise-
Regulatory Commission (NRC) that this             wide risk policy for TVA that defines
office would periodically review TVA’s            TVA’s appetite for significant risks.
Concerns Resolution Program regarding         ■   Consider establishing an independent
employee and contractor willingness to            risk management function to imple-
report nuclear safety and quality                 ment the risk policy.
problems. For the last four review            ■   Address power trading control
cycles, we used a standardized survey             concerns in the areas of organiza-
approach which enables us to compare              tional clarity, risk limits and vulnerabili-
and trend survey results.                         ties, and trading systems and
                                                  processes.
During this period, we surveyed a
                                              ■   Enhance and clarify the audit trail and
sample of TVAN employees and
                                                  other security and control provisions
contractor employees at all nuclear
                                                  in the specifications for a new
sites. We also reviewed closed investi-
                                                  transaction management system.
gative files as well as historical NRC
allegation data pertaining to the TVA         TVA’s Board subsequently requested us
nuclear program. In summary, we               to draft an enterprise-wide risk policy.
found (1) the workforce generally felt free   The project will be completed in April
to raise nuclear safety and quality           1999.
issues, (2) issues associated with the
closed files are reviewed, and (3) the
number of allegations made directly to
NRC by TVAN’s workforce has declined
since 1993.




                                                      SEMIANNUAL REPORT/ OCTOBER 1 , 1 9 9 8 ~ MARCH 3 1, 1 9 99   18
■   APPENDICES




        SEMIANNUAL REPORT/ OCTOBER 1 , 1 9 9 8 ~ MARCH 3 1, 1 9 99
Appendix 1
Page 1 of 2

              OIG AUDIT REPORTS ISSUED DURING
              THE SIX-MONTH PERIOD ENDING MARCH 31, 1999

              The following table summarizes final audit reports issued by the OIG from October 1, 1998 through March 31, 1999.

                                                                                                                FUNDS
                DATE     REPORT                                             QUESTIONED UNSUPPORTED           TO BE PUT TO
               ISSUED    NUMBER              REPORT TITLE                     COSTS       COSTS               BETTER USE

              10/7/98     98-060F        Bear Creek Development
                                         Authority

              10/7/98     98-067C        Hartford Steam Boiler
                                         Proposal - Nuclear
                                         Inspection Services                                                      $196,000

              10/16/98   98-059F         Review of J-Type Contracts
                                         and Associated Internal
                                         Controls

              10/20/98   98-053F         Delivered Cost of Power and
                                         Energy Sales Growth

              10/23/98    98-022C-01     Coopers & Lybrand -
                                         Review of Costs Billed Under
                                         Knoxville Contracts                   $80,761

              10/23/98    98-022C-02     Coopers & Lybrand -
                                         Review of Houston Contract            82,908

              10/23/98    98-022C-03     Coopers & Lybrand -
                                         Review of Atlanta Contract            18,956

              10/29/98   98-062C         P & A Consultants, Corp. -
                                         Preaward

              10/30/98   98-072C         Centennial Resources, Inc. -
                                         Contract

              11/3/98     98-043C        Mesa Associates, Inc. - Contract      71,498                              608,502

              11/3/98     98-063C        Ecolochem, Inc. - Contract              1,043

              11/6/98     98-068C        Peabody Coal Company - Contract

              11/17/98   99-010F         TVA Compliance With Federal
                                         Energy Regulatory Commission
                                         Uniform System of Accounts

              11/25/98   98-052C         Martin-Williams International,
                                         Inc. - Contract                                                            24,000

              12/11/98   98-006C         TSW International - Contract          22,940

              12/17/98   98-066F         TVA’s Annual Financial
                                         Statement Audit - FY 1998



    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                                  Appendix 1
                                                                                                                   Page 2 of 2

                                                                                              FUNDS
 DATE      REPORT                                        QUESTIONED UNSUPPORTED            TO BE PUT TO
ISSUED     NUMBER        REPORT TITLE                       COSTS      COSTS                BETTER USE


12/21/98   99-012C   Lodestar Energy, Inc. - Contract

1/5/99     99-002C   International Business Machines,
                     Inc. - Contract

1/5/99     99-004C   Telos Field Engineer - Contract

1/5/99     99-006C   A&G Tree Service - Contract

1/11/99    99-005C   Porter-Walker, Inc. - Contract

1/11/99    99-023C   Utility Translation System - Review
                     of Terminated Contract Costs              $4,926          $1,926            $51,750

1/13/99    99-013C   Mountain Coal Company LLC -
                     Contract

1/15/99    99-016C   G-UB-MK - Preaward                         7,547           7,547

1/20/99    99-007C   Terra International, Inc. - Contract

1/20/99    99-015C   East Tennessee Mechanical
                     Contractors - Contract                     9,933           9,933

1/25/99    99-017C   Roberts & Schaefer - Preaward                                               320,519

1/27/99    99-011C   Cendant Mobility - Contract               13,236

2/19/99    98-061C   Mesa Associates, Inc. - Contract         130,764

2/24/99    97-004P   Review of Prescription Drug Program
                     Administered by BCBS-TN             401,468

2/24/99    98-055C   BFI - Contract

3/9/99     98-075C   Cormetech, Inc. - Preaward                                                  200,800

3/9/99     99-008P   Blue Cross Blue Shield of
                     Tennessee’s Proposed
                     Administrative Fees - Preaward

3/18/99    98-051C   L. E. Meyers - Contract                  291,142         291,142

3/18/99    99-009C   Marathon Consulting Group,
                     Inc. - Contract

3/22/99    99-021C   Union Pacific Railroad - Contract

3/23/99    99-033F   Verification of Facts Data

3/26/99    99-039C   Gartner Group - Contract

TOTAL        38                                             $1,137,122    $ 310,548          $1,401,571


                                                              SEMIANNUAL REPORT/ OCTOBER 1 , 1 9 9 8 ~ MARCH 3 1, 1 9 99
Appendix 2
Page 1 of 2


              OIG’S REPORT ON MANAGEMENT DECISIONS FOR THE
              SIX-MONTH PERIOD ENDING MARCH 31, 1999

              The following Tables I and II summarize management decisions made by TVA management on OIG recommendations
              contained in final audit reports. The tables reflect amounts which were questioned and recommended to be put to better
              use and track the disposition of these amounts through management decision.

                                                            TABLE I
                                           TOTAL QUESTIONED AND UNSUPPORTED COSTS

                                                                      NUMBER              QUESTIONED         UNSUPPORTED
                   AUDIT REPORTS                                     OF REPORTS             COSTS               COSTS


              A.   For which no management
                   decision has been made by
                   the commencement of the period                           1                  $44,668                     0

              B.   Which were issued during
                   the reporting period                                    13                1,137,122            $310,548

                   Subtotal (A + B)                                        14               $1,181,790            $310,548

              C.   For which a management
                   decision was made during
                   the reporting period                                    13                1,051,026              310,548

                   1.   Dollar value of
                        disallowed costs                                   12 *                990,562              308,622

                   2.   Dollar value of
                        costs not disallowed                                3*                  60,464                1,926

              D.   For which no management
                   decision has been made by
                   the end of the reporting
                   period                                                   1                  130,764                     0

              E.   For which no management
                   decision was made within
                   six months of issuance                                   0                         0                    0

              * The total number of reports differs from the sum of C.1 and C.2 when the same reports contain both costs disallowed
                and not disallowed by management.




    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                                       Appendix 2
                                                                                                                        Page 2 of 2


                                             TABLE II
                                  FUNDS TO BE PUT TO BETTER USE

                                                         NUMBER                                FUNDS TO BE PUT
     AUDIT REPORTS                                     OF REPORTS                               TO BETTER USE


A.   For which no management
     decision has been made by
     the commencement of the period                           0                                              0

B.   Which were issued during
     the reporting period                                     6                                    $1,401,571

     Subtotal (A + B)                                         6                                    $1,401,571

C.   For which a management
     decision was made during
     the reporting period                                     6                                     1,401,571

     1.   Dollar value of
          disallowed costs                                    5*                                      980,252

     2.   Dollar value of
          costs not disallowed                                2*                                      421,319

D.   For which no management
     decision has been made by
     the end of the reporting
     period                                                   0                                              0

E.   For which no management
     decision was made within
     six months of issuance                                   0                                              0

* The total number of reports differs from the sum of C.1 and C.2 when the same reports contain both costs
  disallowed and not disallowed by management.




                                                                   SEMIANNUAL REPORT/ OCTOBER 1 , 1 9 9 8 ~ MARCH 3 1, 1 9 99
Appendix 3
Page 1 of 1



                 INVESTIGATIVE REFERRALS AND PROSECUTIVE RESULTS



                 INVESTIGATIVE REFERRALS                      SUBJECTS   RESULTS THIS PERIOD


                 Subjects referred to U.S. Attorneys             4            6    Indicted
                                                                              9    Convicted
                                                                             10    Referrals Declined

                 Subjects referred to other agencies             4       OWCP reduced benefits of one
                 for investigative or administrative action              individual, terminated benefits for
                                                                         two individuals, and suspended
                                   TOTAL                         8       benefits for another, resulting in
                                                                         long-term savings of $1,875,958.




   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                                   Appendix 4
                                                                                                                   Page 1 of 4




May 7, 1999



TO THE UNITED STATES CONGRESS:

We are providing TVA’s Report on Final Actions on Inspector General audit recommendations, in
keeping with Section 5(b) of the Inspectors General Act of 1978, as amended.

The members of the TVA Board appreciate the work of the Inspector General’s office in helping TVA
improve its efficiency, productivity, and competitiveness as we strive to meet our goals and position
TVA to compete in the global marketplace of the 21st century.

Sincerely,




Craven Crowell



Enclosure




                                                              SEMIANNUAL REPORT/ OCTOBER 1 , 1 9 9 8 ~ MARCH 3 1, 1 9 99
Appendix 4
Page 2 of 4


                 TVA MANAGEMENT’S REPORT ON FINAL ACTIONS FOR THE SIX-MONTH
                 PERIOD ENDING MARCH 31, 1999

                 The following Tables I and II summarize final action taken by management on OIG audit reports. The tables reflect
                 amounts which were agreed to by management and track the disposition of these amounts through final action.
                 Table III contains the explanations by audit report for final actions not taken within one year of the management
                 decision dates.



                                                                   TABLE I
                                                              DISALLOWED COSTS

                                                                          NUMBER                              AMOUNTS
                                                                            OF                              AGREED TO BY
                      AUDIT REPORTS                                       REPORTS                           MANAGEMENT


                 A.   For which final action by
                      management had not been
                      taken by the commencement
                      of the period                                           12                               $4,359,550

                 B.   On which management decisions
                      were made during the reporting
                      period                                                  13                                  990,562

                      Subtotal (A + B)                                        25                               $5,350,112

                 C.   For which final action was
                      taken by management during the
                      reporting period                                        15                                1,613,861

                      1.   Amounts that were
                           recovered by management                            15 *                              1,353,114

                      2.   Amounts that were not
                           recovered by management                              7*                                260,747

                 D.   For which management has
                      taken no final action by
                      the end of the reporting period                         11                                3,736,251

                 * The total number of reports differs from the sum of C.1 and C.2 when a final audit action includes both amounts
                   recovered and amounts not recovered for a single audit report.




    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                                       Appendix 4
                                                                                                                       Page 3 of 4


                                            TABLE II
                               RECOMMENDATIONS THAT FUNDS BE PUT
                                        TO BETTER USE

                                                        NUMBER                              AMOUNTS
                                                           OF                             AGREED TO BY
     AUDIT REPORTS                                      REPORTS                           MANAGEMENT


A.   For which final action by
     management had not been
     taken by the commencement
     of the period                                           1                              $1,408,000

B.   On which management decisions
     were made during the reporting
     period                                                  6                                  980,252

     Subtotal (A + B)                                        7                               $2,388,252

C.   For which final action was
     taken by management during
     the reporting period                                    5                                  371,750

     1.   Dollar value of
          recommendations
          implemented by
          management                                         5*                                 358,850

     2.   Dollar value of
          recommendations
          not implemented by
          management                                         1*                                  12,900

D.   For which management has
     taken no final action by
     the end of the reporting period                         2                                2,016,502

* The total number of reports differs from the sum of C.1 and C.2 when the same reports contain both
  recommendations implemented and recommendations not implemented for a single audit report.




                                                                  SEMIANNUAL REPORT/ OCTOBER 1 , 1 9 9 8 ~ MARCH 3 1, 1 9 99
Appendix 4
Page 4 of 4



                                                         TABLE III
                                         EXPLANATIONS FOR FINAL ACTIONS NOT TAKEN

                    AUDIT REPORT              DATE          DISALLOWED          FUNDS PUT TO          EXPLANATION FINAL
                      NUMBER                 ISSUED            COSTS             BETTER USE           ACTION NOT TAKEN


              Review of Environmental          1/3/97            N/A                  N/A         TVA has finalized a new
              Restricted Awards List                                                              procedure which will be issued
              Contracting Process                                                                 to all organizations.
              96-056P


              Review of Contractor’s           6/6/96        $1,073,291           $1,408,000      TVA is assessing options.
              Financial Condition
              96-035P

              TVA Nuclear Contractor           5/2/97          15,195                  0          TVA is processing final
              97-020C                                                                             settlement with the contractor.

              N/A - Not Applicable
              NOTE: This table excludes two reports in judicial appeal according to the reporting guidelines of the
              Inspector General Act.




    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                                         Appendix 5
                                                                                                                         Page 1 of 1



OIG REPORTING REQUIREMENTS

Information required by the Inspector General Act of 1978, as amended, is included in this semiannual report as
indicated below.

Section 4(a)(2)       Review of Legislation and Regulations                *

Section 5(a)(1)       Significant Problems, Abuses, and                    Pages 6-18
                      Deficiencies

Section 5(a)(2)       Recommendations With Respect to                      Pages 6-18
                      Significant Problems, Abuses, and
                      Deficiencies

Section 5(a)(3)       Recommendations Described in Previous                None
                      Semiannual Reports on Which Corrective
                      Action Has Not Been Completed

Section 5(a)(4)       Matters Referred to Prosecutive                     Appendix 3
                      Authorities and the Prosecutions
                      and Convictions That Have Resulted

Sections 5(a)(5)      Summary of Instances Where Information               **
and 6(b)(2)           Was Refused

Section 5(a)(6)       Listing of Audit Reports                            Appendix 1

Section 5(a)(7)       Summary of Particularly Significant Reports          Pages 9-18

Section 5(a)(8)       Status of Management Decisions for                   Appendix 2
                      Audit Reports Containing Questioned Costs

Section 5(a)(9)       Status of Management Decisions for                   Appendix 2
                      Audit Reports Containing Recommendations
                      That Funds Be Put to Better Use

Section 5(a)(10)      Summary of Unresolved Audit Reports                  Page 11
                      Issued Prior to the Beginning of the
                      Reporting Period

Section 5(a)(11)      Significant Revised Management Decisions             ***

Section 5(a)(12)      Significant Management Decisions With                ****
                      Which the Inspector General Disagreed

   *   There were no significant legislation or regulations reviewed during this reporting period.
  **   There were no instances where information or assistance was unreasonably refused or not provided.
 ***   There were no significant revised management decisions.
****   There were no significant management decisions with which the Inspector General disagreed.




                                                                    SEMIANNUAL REPORT/ OCTOBER 1 , 1 9 9 8 ~ MARCH 3 1, 1 9 99
                                                 HIGHLIGHTS

                                                               FOR SEMIANNUAL REPORTING PERIODS
                                                    MAR 31,       SEPT 30,    MAR 31,      SEPT 30,      MAR 31,
                                                     1999          1998        1998          1997         1997

       ANNUAL BUDGET (In Millions of Dollars)           7.3           7.3       7.3               7.3       7.3
       CURRENT STAFFING                                 81            83         81               83        86

       AUDITS & SPECIAL PROJECTS
       AUDITS IN PROGRESS
       Carried Forward                                   40            46         40            34           41
       Started                                           42            34         50            46           29
       Canceled                                        (11)          (13)       (14)          (10)         (14)
       Completed                                       (38)          (27)       (30)          (30)         (22)
       In Progress at End of Reporting Period            33            40         46            40           34

       AUDIT RESULTS (Thousands)
       Questioned Costs                             $1,137        $1,769     $1,191          $552         $602
       Disallowed by TVA                               946         1,656        636           530          542
       Recovered by TVA                                607           110      2,029           434          434

       Funds to Be Put to Better Use                $1,402          $220     $2,359       $10,585        $1,671
       Agreed to by TVA                                980         5,169        696         5,707         5,262
       Realized by TVA                                 389           136        696         1,078         4,494

       SPECIAL PROJECT RESULTS
       Completed                                        18            11         13               24        15
       Cost Savings Identified/
          Realized (Thousands)                            0      $14,704      $843         $5,700       $38,200

       INVESTIGATIONS
       INVESTIGATION CASELOAD
       Opened                                           59            78         78            56           96
       Closed                                           66            81         74            77           93
       In Progress at End of Reporting Period          133           140        144           139          160

       INVESTIGATIVE RESULTS (Thousands)
       Recoveries                                   $1,145         $284       $946           $481        $2,439
       Savings                                       1,912         3,388       645              9         2,377
       Fines/Penalties                                  27 *

       ADMINISTRATIVE AND
       DISCIPLINARY ACTIONS
       Recommended (# of Cases)                         19            20         24               12        21
       Actions Taken (# of Subjects)                    11            22         12               14        15
       Counseling/Management
          Techniques (# of Cases)                        4              8*

       PROSECUTIVE ACTIVITIES (# of Subjects)
       Referred                                          4            12         11               15        22
       Indicted                                          6             5          2                7         1
       Convicted                                         9             9          6                3         8

       *   Category added to Highlights during reporting period indicated.




TVA/OFFICE OF THE INSPECTOR GENERAL
OFFICE OF THE INSPECTOR GENERAL OF THE TENNESSEE VALLEY AUTHORITY

                   400 WEST SUMMIT HILL DRIVE

                 KNOXVILLE, TENNESSEE 37902-1499
